No. 20-1035

Jn tfje Supreme €ourt of fye Wfrnteb B>tate$

CERTIFICATE OF COMPLIANCE
As required by Rule 33.1(h)
I, Jody D kimbrell certify the above captioned case complies with the
word limitations of this Court, containing 1,354. The word limits do
not include the documents exempt by Rule 33.1(d). The word
processing system is Microsoft Word.
I declare under penalty of perjury that this document contains an
accurate word count according to the word count in the program.

April 18, 2021

V
Jody DKimbrell

